APPENDIX B

Case 2:16-cv-01459-JR

Document 93

Filed 12/06/19

Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
AARON E. CHOAT,

No. 2:16-cv-01459-JR
Petitioner,

v.
RICK COURSEY, Superintendent,
Eastern Oregon Correctional Institution,

ORDER

Respondent.
HERNANDEZ, District Judge:
Magistrate Judge Russo issued a Amended Findings & Recommendation (#56) on
October 2, 2019, in which she recommends the Court deny Petitioner's Amended Petition for
Writ of Habeas Corpus, and deny a Certificate of Appealability. Petitioner has timely filed
objections to the Findings & Recommendation. The matter is now before me pursuant to 28
U.S.C. ยง 636(b)(1) and Federal Rule of Civil Procedure 72(b).
When any party objects to any portion of the Magistrate Judge's Findings &
Recommendation, the district court must make a de novo determination of that portion of the
1 - ORDER

Case 2:16-cv-01459-JR

Document 93

Filed 12/06/19

Page 2 of 2

Magistrate Judge's report. 28 U.S.C. ยง 636(b)(1); Dawson v. Marshall, 561 F.3d 930, 932 (9th
Cir. 2009); United States v. Reyna-Tapia, 328 F.3d 1114, 1121 (9th Cir. 2003) (en banc).
I have carefully considered Petitioner's objections and conclude there is no basis to
modify the Findings & Recommendation. I have also reviewed the pertinent portions of the
record de novo and find no other errors in the Magistrate Judge's Findings & Recommendation.
CONCLUSION
The Court ADOPTS Magistrate Judge Russo's Amended Findings & Recommendation
[86], and therefore, the Amended Petition for Writ of Habeas Corpus [20] is denied. The Court
declines to issue a Certificate of Appealability on the basis that Petitioner has not made a
substantial showing of the denial of a constitutional right pursuant to 28 U.S.C. ยง 2253(c)(2).
IT IS SO ORDERED.

DATED this

day of

MARCO A. HERNANDEZ
United States District Judge

2 - ORDER

, 2019.

